TN

owe  CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 L e g a l B rie fs contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-

KEVIN W. CULP, MARLOW DAVIS, FREDDIE REED-
DAVIS, DOUGLAS W. ZYLSTRA, JOHN S. KOLLER,
STEVE STEVENSON, PAUL HESLIN, MARLIN
MANGELS, JEANELLE WESTROM, SECOND
AMENDMENT FOUNDATION, INC., ILLINOIS CARRY
AND ILLINOIS STATE RIFLE ASSOCIATION,
Petitioners,

v.

KWAME RAOUL, in his Official Capacity as Attorney
General of the State of Illinois, BRENDAN F. KELLY, in
his Official Capacity as Acting Director of the Illinois State
Police, and JESSICA TRAME, as Bureau Chief of the
Illinois State Police Firearms Services Bureau,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7175 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Le ,
My Commission Expires Nov 24, 2020 ,

Notary Public Affiant

 

38416
